March 31, 1998

KENNETH J. HUNTER
CHIEF POSTAL INSPECTOR

SUBJECT: Review of United States Postal Service
         Personnel Security Program – Process for
         Updating Sensitive Clearances

This report presents the results of our review of the
Inspection Service's process for updating sensitive security
clearances (Project Number OV-MA-99-001).

The Inspection Service has not developed and
implemented a system to ensure that sensitive clearances
for non-Inspection Service personnel are updated at least
every five years as required by the Administrative Support
Manual.

The objective of our review was to determine whether the
Inspection Service has a system to ensure that sensitive
clearances are updated at least every 5 years. To
accomplish this objective, we discussed the process with
management officials at Headquarters, and the Memphis
and Newark Inspection Service Operations Support
Groups.

We judgmentally selected a sample of 30 Inspection
Service personnel files serviced by the Newark Inspection
Service Operations Support Group. USPS human
resources personnel compiled the population, furnished by
the Newark Inspection Service Operations Support Group,
from payroll records. We also judgmentally selected a
sample of 37 USPS Leadership Team members’ personnel
files. Both samples were reviewed to determine if sensitive
clearances were updated at least every five years.

We conducted our review during October 1998 through
February 1999 in accordance with the President’s Council
on Integrity and Efficiency, Quality Standards for
Inspections.
USPS Personnel Security	                                                  OV-MA-99-001



Results In Brief 
         This report is the first in a series that evaluates the
                           effectiveness of the United States Postal Inspection Service
                           process for granting and updating security clearances for
                           United States Postal Service (USPS) employees and
                           contractors. This report focuses on the process for updating
                           sensitive personnel clearances. The Chief Postal Inspector
                           is designated as the personnel security officer for the USPS
                           and is responsible for the issuance of security clearances,
                           instructions, and regulations on security requirements. The
                           objective of our review was to determine whether the
                           Inspection Service has a system to ensure that sensitive
                           clearances are updated at least every 5 years.

                           Our review disclosed that the Inspection Service has not
                           developed and implemented a system to ensure that
                           sensitive clearances for non-Inspection Service personnel
                           are updated at least every five years as required by the
                           Administrative Support Manual. The Inspection Service
                           does have a system for ensuring that sensitive clearances
                           are updated for Inspection Service personnel.

                           Based on the results of our review, we suggest the Chief
                           Postal Inspector develop and implement a system to
                           ensure that sensitive clearances for non-Inspection Service
                           personnel are updated at least every five years as required
                           by the Administrative Support Manual. Further, we suggest
                           the Chief Postal Inspector ensure that the system is
                           implemented in a manner that facilitates production of an
                           accurate, current, clearance status for all Postal
                           employees.

Background 	               The Chief Postal Inspector is responsible for the issuance
                           of personnel security clearances and has delegated a
                           security group the authority to issue and update security
                           clearances. The Inspection Service grants basic, non-
                           sensitive, sensitive, and interim sensitive clearances.

                           The following Inspection Service Operations Support
                           Groups perform the updating process:

                             •	 Memphis Inspection Service Operations Support
                                Group is presently responsible for granting and
                                updating all non-Inspection Service clearances.

                             •	 Newark Inspection Service Operations Support Group
                                is responsible for updating Inspection Service
                                            2

                                Restricted Information
USPS Personnel Security	                                                  OV-MA-99-001


                                clearances from Ohio to the Carolinas and Maine;
                                and the

                             •	 San Bruno Inspection Service Operations Support
                                Group is responsible for updating the remaining
                                Inspection Service clearances.

                           The Administrative Support Manual requires that updates of
                           sensitive clearances be accomplished five years after the
                           granting of a sensitive clearance and at least once during
                           each succeeding five years, or at the Chief Postal
                           Inspector’s direction.

Observations 	             Our review of the Inspection Service processes for updating
                           sensitive clearances disclosed that:

Process for Updating         •	 The Inspection Service does have a system for
Sensitive Clearances            ensuring that sensitive clearances are updated for
Needs Improvement 	             Inspection Service personnel every five years.

                           The Newark and San Bruno Inspection Service Operations
                           Support Groups used a monthly report, that was generated
                           from the Inspection Service Data Base Information System,
                           to track when sensitive clearances for Inspection Service
                           personnel were due. We reviewed the Official Personnel
                           Files for 30 Inspection Service employees. We found that
                           the Inspection Service Operations Support Groups were
                           applying the Administrative Support Manual procedures for
                           updating of sensitive clearances for Inspection Service
                           personnel.

                             •	 Inspection Service has not developed and
                                implemented a system to ensure that sensitive
                                clearances for non-Inspection Service personnel are
                                updated every five years as required by the
                                Administrative Support Manual.

                           The Inspection Service was not following the procedures
                           outlined in the Administrative Support Manual when
                           updating non-Inspection Service employees’ sensitive
                           clearances. More specifically, the Inspection Service was
                           not tracking sensitive clearances for non-Inspection Service
                           personnel to ensure that updates were done at least every
                           five years. Managers with the Inspection Service Security
                           Group at USPS Headquarters told us that they had not
                           developed and implemented a system that identifies non-
                                            3

                                Restricted Information
USPS Personnel Security                                                  OV-MA-99-001


                          Inspection Service personnel who need their sensitive
                          clearances updated. Further, the Inspection Service was
                          unable to provide us a list of non-Inspection Service
                          personnel who had active sensitive clearances. We
                          reviewed the Official Personnel Files for 37 members of the
                          USPS leadership team. According to the Administrative
                          Support Manual incumbents in these types of positions
                          require a sensitive clearance. We found that 35 clearances
                          were current and 2 were being processed. When
                          discussing the analysis of our leadership team review with
                          management, they explained that in 1997 the Internal
                          Affairs Division performed updates on the leadership team
                          members. In our opinion, the fact that the leadership team
                          has updated sensitive clearances was not representative of
                          individuals who are not on the leadership team but more
                          the outcome of the 1997 update effort. To illustrate, we
                          further analyzed the 37 clearances and determined that 21
                          needed updating when the 1997-update effort was
                          performed. Of the 21 sensitive clearances, only 3 had been
                          updated within the last five years.

                          •	 In the absence of an effective process that ensures all
                             sensitive clearances are updated, the Inspection
                             Service is compromising the integrity of sensitive
                             information.

Suggestions               We suggest:

                            •	 The Chief Postal Inspector develop and implement a
                               system to ensure that sensitive clearances for non-
                               Inspection Service personnel are updated at least
                               every five years as required by the Administrative
                               Support Manual.

                            •	 The Chief Postal Inspector ensure that the system is
                               implemented in a manner that facilitates production of
                               an accurate, current, clearance status for all Postal
                               employees.




                                           4

                               Restricted Information
USPS Personnel Security	                                                  OV-MA-99-001



Management                 Management agreed with the observations and suggestions
Response                   in the report. They acknowledged that no system in place
                           to ensure that sensitive clearance for non-Inspection
                           Service personnel are updated at least every five years.
                           The Inspection Service is working with the Information
                           Technology Division to develop an interim system that will
                           identify clearances that need updating. The Inspection
                           Service also plans to develop a permanent system that will
                           identify and track the status of security clearances on PS
                           Form 50.

Evaluation of              Management's comments and actions planned are
Management                 responsive to the observations and suggestions in this
                           report.
Response
                           We appreciated the cooperation and courtesies provided by
                           your staff during the review. If you have any questions,
                           please contact me at (703) 248-2300.


                              //Signed//
                           Norman Hancock
                           Assistant Inspector General
                           For Customer

                           cc: 	 John R. Gunnels
                                 Alan B. Kiel




                                            5

                                Restricted Information
USPS Personnel Security                               OV-MA-99-001




Major Contributors to This Report Were:




                                          6


                             Restricted Information
USPS Personnel Security                            OV-MA-99-001




                                      7             Appendix

                          Restricted Information
